<html>
<title> - SECOND CHANCE ACT OF 2005 (PART I)</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                       SECOND CHANCE ACT OF 2005
                                (PART I)

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 1704

                               __________

                            NOVEMBER 3, 2005

                               __________

                           Serial No. 109-66

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
24-371                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  CHRIS VAN HOLLEN, Maryland
MIKE PENCE, Indiana                  DEBBIE WASSERMAN SCHULTZ, Florida
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, General Counsel-Chief of Staff
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                 HOWARD COBLE, North Carolina, Chairman

DANIEL E. LUNGREN, California        ROBERT C. SCOTT, Virginia
MARK GREEN, Wisconsin                SHEILA JACKSON LEE, Texas
TOM FEENEY, Florida                  MAXINE WATERS, California
STEVE CHABOT, Ohio                   MARTIN T. MEEHAN, Massachusetts
RIC KELLER, Florida                  WILLIAM D. DELAHUNT, Massachusetts
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana
J. RANDY FORBES, Virginia
LOUIE GOHMERT, Texas

                  Michael Volkov, Acting Chief Counsel

           Elizabeth Sokul, Special Counsel for Intelligence

                         and Homeland Security

                 Jason Cervenak, Full Committee Counsel

                     Bobby Vassar, Minority Counsel


                            C O N T E N T S

                              ----------                              

                            NOVEMBER 3, 2005

                           OPENING STATEMENT

                                                                   Page
The Honorable Howard Coble, a Representative in Congress from the 
  State of North Carolina, and Chairman, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     1
The Honorable Robert C. Scott, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     2

                               WITNESSES

The Honorable Robert L. Ehrlich, Jr., Governor, State of Maryland
  Oral Testimony.................................................     5
  Prepared Statement.............................................     7
The Honorable Chris Cannon, a Representative in Congress from the 
  State of Utah
  Oral Testimony.................................................     8
  Prepared Statement.............................................    10
The Honorable Danny K. Davis, a Representative in Congress from 
  the State of Illinois
  Oral Testimony.................................................    11
  Prepared Statement.............................................    13
The Honorable Stephanie Tubbs Jones, a Representative in Congress 
  from the State of Ohio
  Oral Testimony.................................................    14
  Prepared Statement.............................................    15

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Safer Foundation, ``Rentry Profile, 7th District of Illinois,'' 
  submitted by the Honorable Danny K. Davis, a Representative in 
  Congress from the State of Illinois............................    49
Position Paper by the Honorable Danny K. Davis, a Representative 
  in Congress from the State of Illinois, and Bernard Glenn-
  Moore, CBCF Legislative Fellow.................................    58

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Robert C. Scott, a 
  Representative in Congress from the State of Virginia, and 
  Ranking Member, Subcommittee on Crime, Terrorism, and Homeland 
  Security.......................................................    63
Letter submitted by Bill Hansell, President, National Association 
  of Counties (NACo), and Beverly O'Neill, President, United 
  States Conference of Mayors (USCM) to the Subcommittee.........    65
Letter submitted by Lewis E. Gallant, Executive Director, 
  National Association of State Alcohol and Drug Abuse Directors, 
  Inc. (NASADAD), to the Subcommittee............................    66
Policy Brief submitted by the National Association of State 
  Alcohol and Drug Abuse Directors, Inc. (NASADAD), to the 
  Subcommittee...................................................    67


                       SECOND CHANCE ACT OF 2005
                                (PART I)

                              ----------                              


                       THURSDAY, NOVEMBER 3, 2005

                  House of Representatives,
                  Subcommittee on Crime, Terrorism,
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:37 a.m., in 
Room 2141, Rayburn House Office Building, the Honorable Howard 
Coble (Chair of the Subcommittee) presiding.
    Mr. Coble. The Subcommittee will come to order. Good to 
have you all with us.
    I want to welcome everyone to this important hearing to 
examine the issue of prisoner reentry and specifically H.R. 
1704, the ``Second Chance Act,'' a bipartisan proposal that 
provides a useful framework for strategic policy innovations 
needed in this critical area. I want to commend our former 
colleague, Representative Portman from Ohio, who is no longer 
with us, and our witnesses today for playing a leadership role 
in raising the profile of prisoner reentry as a public safety 
issue and not solely a corrections issue.
    The need for innovative solutions is obvious. It is 
conservatively estimated that approximately 650,000 inmates 
will be released from State prisons in the next year. In the 
absence of actions to address this issue, 67 percent of these 
individuals will be rearrested, and over half will be returned 
to prison. States are being crushed by an overwhelming 
financial burden; approximately $40 billion a year in direct 
costs alone for correctional costs.
    At the heart of this matter is a simple calculation: will 
the economic and societal savings of reduced recidivism be 
greater than the cost of the resources needed to allow 
individuals returning to society to make this transition 
successfully? Research has shown that the answer to this simple 
calculation is yes. So for that reason, it is critical that we 
on this Subcommittee examine the issue and provide a framework 
for assisting States in developing more effective reentry 
strategies.
    Public safety is not just simply incarcerating individuals. 
Public safety means providing necessary services for those who 
can best benefit from a true second chance in life. A national 
strategy is needed, one that combines Federal, State, and local 
resources, building on successful models for offender reentry 
programs. It also requires that the Subcommittee reexamine 
issues such as drug treatment programs, since a significant 
number of recidivists suffer from drug addiction.
    President Bush, you may recall, stated in his 2004 State of 
the Union Address, ``We know from long experience that if 
former prisoners cannot find work or a home or help, they are 
much more likely to commit more crimes and return to prison. 
America is the land of the second chance, and when the gates of 
the prison open, the path ahead should lead to a better life.''
    I welcome the opportunity to work with my colleagues on 
this matter and, in particular, my good friend, the Ranking 
Member, the gentleman from Virginia, Mr. Bobby Scott, who has 
demonstrated his dedication and leadership in this area. Mr. 
Scott and I oftentimes don't agree on issues, but without 
exception, our disagreements are always agreeable.
    In this case, today, I think we see eye to eye, and I will 
look forward to working with him, and I am now pleased to 
recognize the distinguished Gentleman from Virginia, the 
Ranking Member, Mr. Bobby Scott.
    Mr. Scott. Well, thank you, Mr. Chairman, and I thank you 
for bringing us together to discuss H.R. 1704, the ``Second 
Chance Act.'' This is a bipartisan bill that takes a 
significant step in the right direction toward ensuring that 
those who leave our State and Federal prisons have the 
assistance and support they need to avoid returning.
    The primary reason for us to develop this legislation is 
not simply to assist offenders who are returning to the 
community. The primary reason is to lower the prospects that 
any of us and other law abiding citizens will be the victims of 
crime in the future. The second reason to support this 
legislation is that it reduces the cost to the taxpayers, who 
have to pay for all that recidivism.
    This year, close to 700,000 people will leave prison in the 
United States, and most of them will be ill-prepared to succeed 
in earning a living and leading a law abiding life, and the 
resources available to assist them in reentry are extremely 
limited. In addition, they have a felony record and a prison 
stay. Certainly, those items on the resume certainly don't help 
the job prospects or even social development.
    And so, with limited education, resources, job skills, 
Federal benefits, disqualifications because of drug or other 
convictions, some two-thirds of released prisoners are re-
arrested for new crimes within 3 years of their release.
    Although the national crime rate has fallen significantly 
over the last decade, we're seeing a continuing and 
unprecedented increase in our jail and prison populations. One 
philosopher noted that when you find yourself in a hole, the 
first thing to do is stop digging. But we seem not to be able 
to do that just yet as policy makers. Right after this hearing, 
we will be marking up a bill with more mandatory sentences and 
more severe penalties on top of existing ones.
    All of this focus on increasing sentences has led us to the 
point where we now have, on a daily basis, over 2.2 million 
people locked up in our nation's prisons and jails, which is a 
five-fold increase over the last 20 years. The Federal prison 
population has increased over sevenfold over the past 20 years.
    In 1984, the daily lockup count for our prisons and jails 
was just over 400,000, with about 25,000 Federal prisoners. 
Today, 2 million prisoners, almost 190,000 Federal prisoners, 
and the population is growing. According to both the Sentencing 
Project and the Federal Bureau of Prisons, a primary reason for 
this tremendous growth in prison and jail population has been 
longer sentences resulting from determinate sentencing schemes 
and mandatory minimums. Over 50 percent of incarcerated inmates 
are in jail on nonviolent crimes, with the greatest percentage 
those being there for drug offenses.
    As a result of the focus on incarceration, the United 
States now leads the world by far in incarceration rates, with 
an incarceration rate of 726 inmates per 100,000 population 
last year. The closest competitor isn't anywhere close to 726 
or 626; it's 532; that's Russia, 532 per 100,000, and our rate 
is five to eight times that of industrialized nations, like 
Canada. Canada has a rate of 116; England, 142; Australia, 117; 
France, 85; United States, over 700 per 100,000.
    Despite all of the rough sentencing for crimes, 95 percent 
of the inmates will be released. The question is whether or not 
they reenter society in a context that better prepares them and 
assists them in leading law abiding lives or continue the cycle 
where two-thirds return in subsequent years. So if we are going 
to continue to send more and more people to prison with longer 
and longer sentences, we should at least do as much as we 
reasonably can to assure that when they do leave, they don't 
come back with new crimes. That's why the Second Chance Act is 
very important, and I applaud its developers and lead 
cosponsors: as you've mentioned, former Representative Portman, 
Representative Danny Davis, and Representative Stephanie Tubbs 
Jones and Representative Chris Cannon.
    It's a bipartisan bill supported by 88 cosponsors, 
including myself, and supported by virtually all of the 
criminal justice advocates and organizations, including law 
enforcement who work with or are familiar with the situation 
encountered by those leaving prison today. About the only 
criticism I've heard of the bill and its provisions is that its 
provisions don't go far enough to fully address the problems 
faced by those who are reentering society from prison. I agree 
with that criticism, but I feel that this bill is worthy of 
support as a good first step.
    I am also a cosponsor of a prison reentry support bill 
developed by Representative Conyers in the last Congress that 
will be refiled this year. This bill will address many of the 
programs and issues touched by this bill, but it goes further 
and actually implements the programs on a national level. I've 
seen the value of the prisoner reentry programs. A study of the 
Virginia CARES Program that I supported when I was in the State 
Senate of Virginia only had meager resources for a Statewide 
program, but the study showed that the program had a 25 percent 
reduction in recidivism when compared to like prisoners who 
were released who did not have the benefit of that program. And 
when you cost it out, Mr. Chairman, we found that we saved more 
money than we spent in funding that program.
    As a society, we breathe a sigh of relief when a long 
sentence is issued for a crime, as if that were the end of our 
responsibilities. With the numbers of prisoners and releases 
and reincarcerations growing exponentially, we can no longer 
afford financially or morally to allow ourselves the luxury of 
tough on crime rhetoric, tough on crime policies, with no 
attention to what happens next. To do so is unfair to 
unsuspecting crime victims, including our children; short-
sighted and fiscally irresponsible.
    So, Mr. Chairman, I look forward to the testimony of our 
witnesses as we do what we can to begin to seriously address 
this growing societal program and working with you to further 
develop and pass this critical legislation. I have mentioned 
colleagues who are with us today. I also want to mention the 
Governor who is with us today. We knew we were having a 
Members' panel; I saw the Governor from Maryland, and he seemed 
right in place. I had forgotten that he hadn't been here for 
awhile. So we welcome the Governor back.
    Thank you, Mr. Chairman.
    Mr. Coble. I thank the gentleman from Virginia, and we have 
been joined by the distinguished Lady from California, Ms. 
Waters, and the distinguished Gentleman from Florida, Mr. 
Feeney, and all Members, without objection, opening statements 
will be made a part of the record.
    I want to apologize to my colleagues if I become guilty of 
preferential treatment today, but as Mr. Scott said, our old 
buddy is back with us, and I think it's special when one of our 
own leaves the Hill and then is elected to lead an entire State 
and returns. It's real good to have you with us, Bobby, 
Governor, Your Excellency. [Laughter.]
    And I want to welcome Mrs. Ehrlich, the first lady of 
Maryland, with us also. My chief of staff, Mr. Scott, is a 
Maryland boy. There he sits on the front row, and he said to me 
the Governor is always late. I'm sure he won't be on time. 
[Laughter.]
    So your words were not prophetic, Mike. But we do have four 
distinguished witnesses with us today. Our first witness is the 
Honorable Robert L. Ehrlich, Jr., Governor of the State of 
Maryland. Since assuming office in 2003, Governor Ehrlich 
launched Project Restart to reduce repeat offenses and end the 
revolving door of offenders returning to prison.
    Prior to serving as Governor, as we have already mentioned, 
he served as a Member of Congress from 1995 to 2003 and in the 
House of Delegates in Maryland from 1987 to 1995. Governor 
Ehrlich received his undergraduate degree from Princeton 
University and his J.D. from the Wake Forest University School 
of Law in North Carolina.
    Our second witness today is the Honorable Chris Cannon, the 
sponsor of this bill before us today. Representative Cannon 
served the Third Congressional District in the State of Utah 
and was first elected to the Congress in 1996. He chairs the 
House Judiciary Subcommittee on Commercial and Administrative 
Law in addition to being a Member of the House Government 
Reform Subcommittee on Criminal Justice, Drug Policy, and Human 
Resources. Prior to serving in Congress, Representative Cannon 
worked as a successful businessman in Utah, having received his 
B.A. and law degrees from Brigham Young University.
    Our third witness is the Honorable Danny K. Davis. 
Representative Davis serves the Seventh Congressional District 
in the State of Illinois and was first elected to Congress in 
1996. Representative Davis has been instrumental in the 
formulation of this legislation and has worked tirelessly on 
reentry issues. He previously convened an ex-offender task 
force in his district, which explored the problems facing ex-
offenders. Representative Davis was awarded his B.A. degree 
from the University of Arkansas at Pine Bluff and a doctorate 
degree from the Union Institute in Cincinnati, Ohio.
    Our final witness today is the Honorable Stephanie Tubbs 
Jones, who has also dedicated herself to reentry issues and 
played a critical role in the drafting of this legislation. 
Representative Tubbs Jones serves the 11th Congressional 
District in Ohio and was first elected to Congress in 1999. 
Prior to serving in Congress, Representative Tubbs Jones worked 
as a prosecutor and municipal court judge in the City of 
Cleveland. Currently, she serves on the board of directors of 
Community Reentry, a program which seeks to reduce recidivism 
among ex-offenders. She received both her undergraduate degree 
and J.D. from the Case Western Reserve University.
    As I said, we've been joined by the distinguished Gentleman 
from Massachusetts, Mr. Delahunt as well.
    Folks, we operate under the 5-minute rule here. If you all 
violate that rule, Mr. Scott and I will not call on the 
Maryland troopers in the back of the room to haul you into 
custody, but when you see that red light appearing on your 
panel in front of you, that is your warning that your 5 minutes 
have elapsed, so if you would begin to wrap it up at that time, 
we would be appreciative.
    We are pleased indeed to start the ball rolling with 
Governor Ehrlich. You are recognized for 5 minutes, Governor.

 TESTIMONY OF THE HONORABLE ROBERT L. EHRLICH, JR., GOVERNOR, 
                       STATE OF MARYLAND

    Governor Ehrlich. I will be brief. It is great to be here. 
Congressman Scott, it is great to see everybody. Mr. Chairman 
and Members, it's just terrific to be back here on the Hill. I 
am very proud to bring the First Lady with me.
    I'm going to submit my statement for the record. I'm just 
going to make a couple of observations. Thank you very much for 
this bill. It is bipartisan in nature. It's a good idea. It's a 
sound concept.
    I have brought some folks from Maryland I will introduce in 
a second with me today as well: Secretary Mary Ann Saar, who is 
my Secretary of Public Safety and Correctional Services, is 
here and leading the effort. Tommy Ahres as well is the person 
in charge of implementing Restart in Maryland.
    Representative Scott, truly going off topic, I was in the 
State legislature in the 1980's, and the big debate at that 
time was what predicate offenses we would increase in the 
juvenile system to get tough, to get tough, to get tough, to 
send the message out to the juvenile population. That debate 
was replicated around the country during that time; and of 
course, since many of these kids were saveable, many had 
addictions, although they had committed increasingly violent 
crimes.
    We ended up with long prison sentences. We ended up with a 
very long list of enumerated offenses that would have a young 
juvenile offender waived up into the adult system, and now, we 
have the results from that policy which, quite frankly, for the 
most part, failed, not just in Maryland but around the country, 
as you well know.
    The recidivism rate in Maryland, in the adult system, is 49 
percent. Nationally, I've seen various numbers: 55, 60, 67 
percent. The issue is quite simple: job skills and addiction 
and not in that order. Coming into office, it may have been 
counterintuitive for some for a Republican Governor to champion 
this cause. Quite frankly, Mr. Chairman and Members, I guess 
the definition of a fool is someone who continues to do the 
same thing and expects a different result. And in Maryland, we 
were going to do something different. We were going to do 
something to break eggs, to break the paradigm, whatever 
euphemism, whatever analogy you wish to make; the bottom line 
was we needed to try something new; we needed to be bold.
    There was little down side, since the task had, quite 
frankly, been replete with failure. I thought in the process, 
we might save some lives; we might save the taxpayer some 
dollars as well; hence, Restart in the State of Maryland. The 
program is science-based. It has four major components: 
correctional education, substance abuse, social work, and 
offender reentry. It's based on research, it's based on 
science, sound social science. It emphasizes the importance of 
cognitive restructuring programs, academic training, vocational 
skills, and of course, substance abuse training.
    Mr. Chairman, you well know the first lady of Maryland is a 
former public defender and prosecutor. This is a subject near 
and dear to her heart as well, particularly on the substance 
abuse end.
    We've added elements to what we began a year and a half 
ago. These elements include enhanced academic training, 
enhanced cognitive restructuring, anger management, adult basic 
education, GEDs, vocational skills training, and, of course, 
enhanced substance abuse treatment as well. We have signed up 
the nonprofit community in Maryland. A new public-private 
partnership is being established that focuses on connecting 
responsible reentry with a reduction in the prison population. 
We basically have a contract with the nonprofit community. It 
is called the Maryland Opportunities Contract. It uses up front 
seed money from private foundations to provide reentry services 
to offenders to achieve savings from a reduction in the prison 
population.
    Mr. Chairman, I'm not going to sit here in front of you nor 
my former colleagues and tell you that what we've done is 
perfect or that it works. We passed our bill our second year in 
office. It's been up a year and a half. We have received some 
unfortunate opposition from Members of our General Assembly. 
Getting everyone to buy in, all of the elements of the criminal 
justice system, has not been as easy as you might think.
    I can tell you, however, that in Maryland, we will not 
repeat the mistakes of the past. I am here to support your bill 
because it makes sense. The Second Chance Act represents a real 
important, critically important step by Congress to ensure that 
the millions who cycle through our nation's prison systems have 
a better chance to become solid citizens.
    It's a cliche, Mr. Chairman, and you know it quite well, 
but a few dollars spent on the front end, even dollars spent 
behind walls, in my view, will guarantee less victims in the 
future, more solid taxpaying citizens for our society. It's a 
pretty good risk to take, and I am very proud to have Maryland 
in the vanguard of this movement nationally, and I thank you 
for the time.
    [The prepared statement of Governor Ehrlich follows:]

       Prepared Statement of the Honorable Robert L. Erlich, Jr.
    Good Morning Chairman Coble and members of the Subcommittee.

    I am Robert Ehrlich, Governor of the State of Maryland. I 
appreciate the opportunity to testify before you today on offender re-
entry and H.R. 1704, The Second Chance Act of 2005. This is an issue 
that I believe is deserving of greater attention and focus.
    My Administration has a significant interest in the issue of 
offender re-entry. Though Maryland is a small, relatively wealthy 
state, we grapple with the same challenge that practically every state 
in the country faces--how to manage the volume of offenders cycling 
through our prisons.
    Each year more than 650,000 individuals, 14,000 in Maryland alone, 
are released from our nation's prisons. These men and women have served 
their time, paid their debt to society, and are returning to their 
communities with the potential to be good citizens. Unfortunately, 
their return to the community is often brief and many end up back in 
prison. Currently, Maryland's recidivism rate stands at 49%. Research 
has shown that, nationwide, up to 67% of those released are rearrested 
within 3 years, creating a cycle of incarceration.
    When individuals do re-offend, they not only add to the number of 
crime victims in our communities, they also cost taxpayers more money 
by becoming part of our prison system again. I am committed to doing 
something to break this cycle in Maryland.
    Many barriers await people leaving prison. Inmates are often ill 
prepared to return to the community, lacking access to resources needed 
to assist in their transition. Cognitive skills training, employment 
readiness, job opportunities, affordable housing, parenting skills, 
substance abuse treatment, and social services' resources are important 
elements for an individual's successful re-entry into the community.
    Re-entry programs reduce recidivism and make our communities safer. 
In addition to helping individuals stay on the right path and reducing 
crime, successful re-entry programs also save money. Investing in re-
entry programs eases the financial burden on states and taxpayers. From 
1982 to 1997, state spending on incarceration went from $9 billion 
annually to $44 billion, and that does not include the cost of arrest 
and prosecution. The annual cost of incarceration in Maryland is 
$24,000 per inmate. That is more expensive than the annual tuition at 
many of the best colleges in the country.
    A major national study conducted by the Washington State Institute 
for Public Policy found that the best reentry programs could deliver 
20% to 30% reductions in recidivism or crime rates and that even modest 
reduction in future criminality can have an attractive bottom line. A 
report on the Philadelphia corrections system showed that, by reducing 
recidivism rates by only 10%, there would be a savings of $6.8 million 
in jail costs alone.
    In Maryland, through our Department of Public Safety and 
Correctional Services, we are creating a system for offender re-entry 
that has never existed in the State; a system that balances custody and 
control with treatment and services, providing offenders with the 
necessary tools to become productive members of their communities.
    The Department has launched RESTART, an acronym for Re-entry 
Enforcement, and Services Targeting Addictions, Rehabilitation, and 
Treatment. RESTART has four major program components--Correctional 
Education, Substance Abuse Treatment, Social Work, and Offender Re-
entry--and is based upon numerous research studies that emphasize the 
importance of cognitive restructuring programs, academic training, 
vocational skills training, and substance abuse treatment in reducing 
recidivism.
    RESTART is adding new programming that research has demonstrated to 
have a positive impact on recidivism. These programs consist of 
academic training, including cognitive restructuring, anger management, 
adult basic education, general equivalency diplomas, vocational skills 
training and substance abuse treatment.
    Offender re-entry is not simply a public safety issue; it's a human 
issue. In Maryland we have been extremely fortunate to have 
philanthropic organizations that are willing to invest in second chance 
programs. A new public-private partnership is being established in 
Maryland that is focused on connecting responsible re-entry with a 
reduction in the prison population. The Maryland Opportunities Compact 
will use up-front seed money from private foundations to provide re-
entry services to offenders and achieve savings from a reduction in the 
prison population. That savings, in turn, will be used to continue to 
fund re-entry programs in Maryland.
    The Compact will enhance public safety by helping former inmates 
become productive citizens, and it will produce public savings that 
will be redirected to focus on individuals with a higher risk of 
recidivism while simultaneously expanding resources and improving 
outcomes for moderate to low risk individuals.
    This compact builds upon our efforts in Maryland to enhance 
rehabilitation and re-entry programs and implement parole reform 
policies. I believe that programs like the Maryland Opportunities 
Compact will enable us to return hundreds of thousands of inmates to 
their communities as responsible citizens and members of a strong 
Maryland workforce. At the same time, we further benefit taxpayers by 
funding this effort with budget savings.
    Additional tools and resources from the federal government would be 
helpful for states like Maryland that are seeking to address deep-
rooted, systemic recidivism problems.
    The Second Chance Act, H.R. 1704, represents a critically important 
step by Congress to ensure that the millions who cycle through our 
nation's prison systems have a better chance to become solid citizens.
    I support passage of the Second Chance Act, a bi-partisan bill, 
that will help people transition to life outside of prison and provide 
strategic help in the five key areas of employment, housing, mental 
health, substance abuse, and support for families.
    This legislation authorizes much needed assistance to state and 
local governments for projects that enhance a person's ability to find 
a job and receive housing or substance abuse and mental health 
treatment. It also allows grandparents to receive support for taking 
care of the children whose parents are incarcerated, which keeps the 
kids out of foster care. Just as important, the bill creates a federal 
task force from various agencies to identify ways to collaborate and 
remove barriers to successful re-entry.
    I urge Congress to act promptly to pass this important legislation. 
Providing offenders with the tools needed to make a successful 
transition from prison is an investment that we cannot afford to 
ignore. We should provide these individuals with the assistance needed 
to make the most of their second chance. It will make them better 
citizens, it will reduce crime, and it will save taxpayers money.
    Thank you again for the opportunity to testify on this important 
issue.

    Mr. Coble. Thank you, Governor, and in addition, Governor, 
to having arrived on time, you did not abuse the 5-minute rule, 
and I commend you for both.
    The gentleman from Utah is recognized for 5 minutes.

 TESTIMONY OF THE HONORABLE CHRIS CANNON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Cannon. Thank you, Mr. Chairman.
    I appreciate your holding this hearing on the Second Chance 
Act on offender reentry and recidivism. I would like to 
associate myself, first of all, with the remarks of Governor 
Ehrlich, who has been a good friend and who has taken the lead 
on this issue and done a remarkably good job, and I note that 
he pointed out that he is supported by a terrific staff, who 
are actually making a difference on these issues.
    I would like to start by talking about Jessica Nickel, who 
is the person who worked with Representative Portman before he 
left us; is now with the Council of State Governments, director 
of Government affairs, and she is the person who has done such 
a tremendous amount of work to pull things together.
    We now have 90 cosponsors, including you, Mr. Chairman, and 
Mr. Scott, and I hope others on the Committee will see fit to 
do so, and we have 193 organizations that have supported this. 
And those are big numbers, and they're possible in part because 
of my good friends, Congressmen Davis and Tubbs Jones, who have 
been working on this and who bring a world of experience to 
this issue. Danny Davis and I have preached together and I sort 
of view this as a bit of preaching, because as I look at what 
we're doing here in America, there are numbers, and Governor 
Ehrlich has talked a little bit about those numbers, and 
Congressman Scott has laid out many of those numbers. These are 
numbers that we agree to that exist that can be looked at, 
examined, and they're big numbers, and they're numbers that 
deal with how we spend our money at the Federal level and also 
at the State level.
    But I think what we're dealing with here is something more 
than that. I think this is a fundamentally moral issue, and in 
America, we have a religion. Much has been written about that. 
It is not one sect or another, but there are some fundamental 
ideas that we hold as Americans, fundamental religious ideas, 
and at the base of that is the belief that there is a god.
    Now, you don't have to believe that there is a god to be an 
American, but most Americans believe that, and they also 
believe that there is going to be a judgment. And that means 
that we stand before God at some point in time and have to 
account for what we have done in life, and that means our 
personal actions toward those around us and toward our family 
members and others.
    But when we step into the environment that we're in now and 
in Congress or governing, as Governor Ehrlich does, we have a 
broader set of responsibilities, and the Christian concept 
always includes the responsibility we have toward widows, 
orphans, and prisoners. You don't find a statement where we are 
mandated to take care of those less fortunate without including 
the concept of prisoners. And that's because prisoners are 
human beings that God cares about and that we are going to be 
judged as to how we deal with them.
    And so, behind all the statistics, there are human beings 
and our responsibility before God to do the things that are 
right, and that means not, as I think the Governor said, it's 
ridiculous--you can't continue to do the same thing and expect 
a different result, and so, we have to do some changing.
    Now, Congressman Scott and I have talked over the years 
about the problem with prisoners, and it's something that we 
haven't done a lot about. But I view it as a great moral 
responsibility. And so, it is a great pleasure for me to take 
the lead on Congressman Portman's bill. Now, we have not 
reintroduced a bill, and I want this to be Congressman 
Portman's bill so that he is honored for all of the work that 
he has done on that, because the work has been tremendous.
    And I just want to commend you, Mr. Chairman, and other 
Members of the Committee, for having this hearing and taking 
the lead on this, because I think it's a bill whose time has 
come. It's a first step. I think there are many other steps, 
and you're going to hear from other folks today on the next 
panel talking about maybe where we ought to go later on. But 
this is a good first step that creates an accountability 
process; it creates a process for communication between the 
Federal Government and the States. It creates a context in 
which individuals who had a problem in life and who are now 
coming back into society can have their path eased and 
hopefully get on a path that will take them away from the 
problems that got them there in the first place and in the 
process keep our communities safer.
    But at heart and fundamentally, I believe the issue here is 
a moral issue, how we take care of the least among us. And with 
that, Mr. Chairman, I want to thank you and yield back my time.
    [The prepared statement of Mr. Cannon follows:]

 Prepared Statement of the Honorable Chris Cannon, a Representative in 
Congress from the State of Utah, and Member, Committee on the Judiciary

    Thank you Mr. Chairman and members of the Subcommittee for holding 
this important hearing today. I am honored to testify before you about 
offender reentry and reducing recidivism.
    As you know, our nation is releasing more and more people every 
year from prison and jail, and the results aren't getting any better. 
The way we currently release and return prisoners to the community 
makes neighborhoods less safe, less healthy, and less stable.
    With bipartisan support from my colleagues, I have taken the lead 
on major reentry reform legislation, which was originally introduced by 
Mr. Portman. This bill would help our states and communities better 
address the challenges of prisoner reentry.
    The Second Chance Act is a bipartisan approach to prisoner reentry 
that will better coordinate federal agencies and policies on prisoner 
reentry. The bill also increases the federal financial support to 
states and community organizations to address the growing population of 
prisoners returning to communities. The bill addresses a variety of 
important areas for offenders and communities, including: jobs, 
housing, substance abuse and mental health treatment, and support for 
families.
    The Second Chance Act brings together state and local governmental 
entities to work on reentry together. Using state task forces and 
better coordination between the different agencies we can improve the 
efficiency of reentry services and make sure the federal, state and 
local governments work together for the returning prisoners and the 
communities and families they come home to.
    Additionally, the burden on our citizens and taxpayers is a serious 
concern. The average cost to house a federal inmate is over $25,000 a 
year. The average cost at the state level in 2000 was only slightly 
less--$21,170 annually. These figures do not include the cost of arrest 
and prosecution, nor do they take into account the costs to the 
victims. Although taxpayers went from spending $9 billion per year on 
corrections in 1982 to $60 billion two decades later, it is shocking 
that the failure rate hasn't improved over the last 30 years.
    A modest expenditure to help transition offenders back into the 
community can save taxpayers thousands of dollars in the long run. A 
prominent 2001 study found that, ``the best [reentry] programs can be 
expected to deliver 20% to 30% reductions in recidivism or crime 
rates'' and that ``programs that can deliver--at a reasonable program 
cost--even modest reductions in future criminality can have an 
attractive economic bottom line.''
    Successful prisoner reentry requires the active involvement of 
nongovernmental entities, such as non-profit agencies, faith 
institutions, ex-offender support groups, and community organizations. 
The Second Chance Act actively encourages public-private partnerships 
at the local level. The real solutions to this systemic problem are 
innovations at the community level. The federal government can and 
should provide leadership to stimulate locally-based action.
    Accountability. Prisoner reentry is about reducing and preventing 
crime, as well as restoring lives. We need to be both tough and smart 
on crime. High rates of recidivism translate into thousands of new 
crimes each year. The social and economic costs of a 67 percent 
recidivism rate nationally are astounding. The American people expect 
Congress to be tough in keeping dangerous felons from returning and 
committing new crimes, but also smart in making sure that those who are 
coming home are given the chance to start a new life. This shift in 
thinking by federal and state governments will mean better 
accountability to our citizens at home.
    We must insist that people released from prison and jail, and the 
government agencies and providers that supervise and serve them upon 
their return to the community, do a better job. Continued funding for a 
program should be contingent upon some demonstration that it has made 
inroads on recidivism. The Second Chance Act will improve 
accountability to our citizens by setting forth clear performance 
measurement goals among states, local governments and community 
partners.
    Innovation. James Q. Wilson has said that the best role for the 
federal government in crime control is to test new ideas. The Second 
Chance Act does this by reauthorizing research-based demonstration 
projects for states and local units of government. The bill also 
establishes a national resource center for states, local governments, 
service providers, faith-based organization, corrections and community 
organizations to collect and disseminate best practices and provide 
training and support around reentry.
    The legislation also provides for additional research on prisoner 
reentry. There is a scarcity of research and data on the issue of 
prisoner reentry, therefore, the Second Chance Act directs the National 
Institute of Justice and the Bureau of Justice Statistics to create a 
research agenda and statistical series that will fill this void. In 
addition, we make sure that both the demonstration project and the 
mentoring grants have performance-based outcome expectations to make 
sure federal dollars are fully maximized.
    Our states continue to experience a fiscal crisis of unprecedented 
dimensions. These fiscal constraints have been exacerbated by rising 
prison costs, which now consume more state discretionary dollars than 
any program but Medicaid. Congress has a valuable role to play in 
helping the states to find ways to reduce unnecessary corrections 
costs, while enhancing public safety. The technical assistance 
component of this bill will make sure that all agencies in the federal 
reentry task force are geared to help states formulate their reentry 
initiatives. While our role is limited because of the realities of the 
corrections system, it is crucial that federal involvement spurs 
innovation and improved accountability.
    Hope. There is a clear lack of hope among this growing population. 
As the numbers of people under supervision of the criminal justice 
system swell, an expectation develops that crime, unemployment, and 
addiction is the destiny of the next generation. Children of parents 
who have been incarcerated may be at greater risk for depression, 
aggressive behavior and withdrawal, and criminal involvement.
    We need to motivate people to change. Risk and needs assessments, 
which are individualized and validated, should be used for each person 
admitted to prison and released from a corrections facility to pinpoint 
what form of monitoring, conditions, and sanctions are most likely to 
affect that person's behavior. We must also provide role models and 
foster other meaningful relationships with ministers, peers, family 
members, and community leaders to help change a person's behavior, 
attitude, and openness to treatment. The Second Chance Act would help 
states to better use assessment tools and provides support to nonprofit 
organizations that link mentors with prisoners.
    Families. Another significant cost of prisoner reentry is the 
impact on children and families. As you all know, the number of 
children with a parent in a federal or state correctional facility has 
increased over the last decade by more than 100 percent to 
approximately 2,000,000 children. When expanded to children with 
parents under some form of corrections supervision, the number is 
closer to 10 million children. These children are at risk for drug 
abuse and delinquency and need our attention.
    The Second Chance Act would provide resources to grandparents and 
other kinship care and foster care providers who care for children 
during parental incarceration. It would also provide state and local 
governments with resources for family-based drug treatment to treat 
parents and their children as a complete family unit. Reentry success 
or failure has implications for public safety, the welfare of children, 
family, growing fiscal issues, and community health.
    It is our responsibility to society to address the most basic needs 
of prisoners coming home. Through the Second Chance Act, we can reduce 
prisoners' chances of re-offending and improve their success as 
productive, contributing citizens. This legislation is a bipartisan 
effort that applies new solutions to this problem to improve our 
accountability to our citizens and better utilize state and local 
innovation.

    Mr. Coble. I thank the gentleman.
    Mr. Davis, recognized for 5 minutes.

TESTIMONY OF THE HONORABLE DANNY K. DAVIS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Davis. Thank you very much, Mr. Chairman, Ranking 
Member Scott.
    Let me first of all thank you for calling this hearing, and 
I welcome the opportunity to testify. I also want to thank 
Chairman Sensenbrenner and Ranking Member Conyers for the 
leadership that they have both provided and the support that 
they have given to this process. I also want to commend my 
colleagues, Representative Chris Cannon, for the leadership 
role that he has played, and Representative Stephanie Tubbs 
Jones.
    It is indeed good to be here and to recognize the work that 
the Governor of Maryland, Governor Ehrlich, has demonstrated in 
terms of leadership, and I also want to thank all of those 
groups. We call them the working group, National Association of 
Counties, U.S. Conference of Mayors, lots of other prisoner 
reentry and social rehabilitation groups that have been 
involved in the process right down the line.
    The issue of ex-offender reentry has had priority status 
with me for a number of years, and when President Bush stated 
in his 2004 State of the Union Address, and I quote, ``We that 
we need to do more to help the more than 600,000 ex-offenders 
coming home from jails and prisons each year to successfully 
find their way back into normal life;'' I almost jumped out of 
my seat and had to be the first person to applaud at that 
moment.
    A few weeks later, I was equally elated when I received a 
call from then-Representative Rob Portman's office inviting me 
to work with him to try and move toward implementation of the 
goal toward reentry stated in the President's speech. I am 
convinced that we could not be at this juncture with possible 
movement of this legislation had not it been for the hard work, 
dedication, commitment, and leadership of Representative Rob 
Portman, who is now the U.S. Trade Representative, and I take 
this opportunity to express my personal thanks and appreciation 
to him and his chief of staff on the issue. And I know that 
when I do this, I express the sentiments of all of those who 
have worked so long and so hard and who are advocating for 
passage of this legislation.
    The successful reentry of individuals returning to civil 
society after having been convicted of a crime and experiencing 
incarceration is one of the great challenges of our day and is 
one of the biggest problems facing many urban inner-city 
communities throughout the nation. With approximately 650,000 
of these individuals returning home each year, with low levels 
of formal education, minimal job skills, psychological, 
emotional, and substance abuse problems, no place to live, no 
job, cannot live in public housing, cannot get student aid, 
cannot in some instances get Food Stamps, and of course, cannot 
work in many places because of legal prohibitions, thereby 
putting enormous pressure on the social infrastructures of 
those communities where they are most likely to try and live.
    Mr. Chairman, the Second Chance Act gives hope to the 
hopeless and provides help for the helpless. Research has 
shown, and we know that when individuals leave prison and our 
correctional facilities, we know that unless they receive some 
form of help, 67 percent of them are likely to reoffend within 
a 3-year period of time, and 53 percent of them are most likely 
to be back in jail or prison.
    All of the components of the Second Chance Act are greatly 
needed and will help a great deal to more effectively meet this 
great need. However, I urge that we put special efforts to 
provide adequate substance abuse treatment for those 
individuals who are addicted. We know that when individuals are 
treated for their addictions, the chance for successful reentry 
vastly improves.
    Mr. Chairman, I am advocating that substance abuse 
treatment be an integral part of our reintegration plans, 
programs, and strategies. Untreated substance abuse increases 
social problems and raises public safety costs. In my State, 
the State of Illinois alone, where we expect 46,000 individuals 
to return home from jail and prison this year, of this number, 
at least 12,000, or well over 25 percent, will have substance 
abuse problems. The correlation between substance abuse, crime, 
child abuse, accidents, and all forms of public safety is so 
high until it is crystal clear that when you reduce substance 
abuse, you reduce crime; reduce substance abuse, reduce 
incarceration; reduce substance abuse, reduce recidivism; 
reduce substance abuse, save money; reduce substance abuse, 
save lives.
    Mr. Chairman, we all deserve a second chance. I welcome the 
opportunity to be here. I thank you for the hearing and thank 
you for the leadership that you are showing in this issue, and 
I yield back the balance of my time.
    [The prepared statement of Mr. Davis follows:]

Prepared Statement of the Honorable Danny K. Davis, a Representative in 
                  Congress from the State of Illinois

    Chairman Sensenbrenner, Ranking Member Conyers, Subcommittee 
Chairman Rep. Coble, Ranking member, Rep. Scott and Members of the 
Committee, I thank you for convening this hearing and welcome the 
opportunity to testify. The issue of ex-offender re-entry has had 
priority status with me for a number of years and when President Bush 
stated in his 2004, State of the Union Address, ``that we need to do 
more to help the more than 600,000 ex-offenders coming from jails and 
prisons each year to successfully find their way back into normal 
life,'' I almost jumped out of my seat and had to be the first person 
to applaud.
    A few weeks later, I was equally elated when I received a call from 
then Rep. Rob Portman's office inviting me to work with him to try and 
move towards implementation of the goal towards re-entry stated in the 
President's speech. I am convinced that we would not be at this 
juncture with possible movement of this legislation had it not been for 
the hard work, dedication, commitment and leadership of Rep. Rob 
Portman who is now the U.S. Trade Representative; and I take this 
opportunity to express my personal thanks and appreciation to him; and 
I know that I express the sentiments of all of those who are advocating 
for passage of this bill. The successful re-entry of individuals 
returning to civil society after having been convicted of a crime and 
experiencing incarceration is one of the great challenges of our day 
and is one of the biggest problems facing many urban inner-city 
communities throughout our nation. With approximately 650,000 thousand 
of these individuals returning home each year with low levels of formal 
education, minimal job skills, psycho-emotional and substance abuse 
problems, no place to live, no job, cannot live in public housing, 
cannot get student aid, cannot in some instances get food stamps and, 
ocourse cannot work in many places, because of legal prohibitions; 
thereby, putting enormous pressure on the social infrastructures of 
those communities where they are most likely to try and live.
    Mr. Chairman, the Second Chance Act gives hope to the hopeless and 
provides help for the helpless. Research has shown and we know that 
when individuals leave prison and/or correctional facilities, we know 
that unless they receive some form of help, sixty-seven percent of them 
are likely to re-offend within a three year period of time and fifty-
three percent are most likely to be back in jail or prison. All of the 
components of the Second Chance Act are greatly needed and will help a 
great deal to more effectively meet this great need. However, I urge 
that we put forth special efforts to provide adequate substance abuse 
treatment for those individuals who are addicted. We know that when 
individuals are treated for their addictions the chance for successful 
re-entry vastly improves. Mr Chairman, I am advocating that Substance 
Abuse Treatment be an integral part of our reintegration plans, 
programs and strategies. Untreated substance abuse increases social 
problems and raises public safety costs.
    In my state, the state of Illinois alone, where we expect 46,000 
individuals to return home from jail and prison this year, of this 
number at least twelve thousand or well over twenty-five percent will 
have substance abuse problems. The correlation between substance abuse, 
crime, child abuse, accidents and all forms of public safety is so high 
until it is crystal clear, reduce substance abuse, reduce crime, reduce 
substance abuse, reduce incarceration, reduce substance abuse, reduce 
recidivism, reduce substance abuse, save money, reduce substance abuse, 
save lives.
    Mr. Chairman, we all deserve a second chance and I say let it begin 
now!!! This bill will go a long way to help. I yield back the balance 
of my time.

    Mr. Coble. Thank you, Mr. Davis.
    Ms. Tubbs Jones, recognized for 5 minutes.

      TESTIMONY OF THE HONORABLE STEPHANIE TUBBS JONES, A 
       REPRESENTATIVE IN CONGRESS FROM THE STATE OF OHIO

    Ms. Tubbs Jones. Thank you, Mr. Chairman.
    I thank you for holding the hearing as well as Ranking 
Member Bobby Scott. I, too, want to echo the words of my 
colleagues about the leadership that Congressman Rob Portman 
from my home State has shown in this issue. I would also like 
to welcome Governor Ehrlich back.
    Just for the record, Mr. Chairman, and I only correct it 
because it gives perspective on why I sit at this table, I was 
an assistant prosecutor for 2 years. I was a municipal judge 
for 15 months. I was a general jurisdiction judge for eight and 
a half year doing criminal and death penalty cases, and I was 
the elected prosecutor of the largest prosecutor's office in 
the State of Ohio before I came to Congress.
    And I add that because people may think it is strange that 
a judge and a former prosecutor would be at the table talking 
about community reentry issues, but I've been waiting 25 years 
for the opportunity to testify on this issue before the 
Congress of the United States.
    In Cleveland, as a prosecutor, I helped to establish a pre-
trial diversion program to allow first time offenders to be 
diverted into a probation program so that they would be able to 
have a clean record and keep going. I was part of the 
establishment of a drug court in the Cleveland Municipal Court, 
because like my colleague, Mr. Davis, I see substance abuse as 
a real significant problem in our nation. Prisoner reentry is 
not a Democratic issue; it is not a Republican issue; it is a 
common sense issue. The facts are clear that meaningful reentry 
programs significantly diminish the chance that ex-offenders 
will return to prison.
    These programs, and I would also join with my colleague in 
saying that I believe it is a moral issue as well. We can 
always talk about people having paid their debt to society, but 
if we don't ever give them a chance to walk in the shoes of 
those who have paid their debt, then, we are facing families 
that are in problems, children that are in problems and 
communities that have difficulty.
    Before I discuss this legislation and how we're dealing 
with prisoner reentry in Ohio, let me describe the problem we 
currently have faced. The State of Ohio has one of the largest 
populations of ex-offenders. In 2001, about 24,000 ex-offenders 
returned to their communities. Of those ex-offenders, an 
estimated 6,000 returned to Cuyahoga County, about 5,000 to the 
City of Cleveland, which is the main city in my jurisdiction. 
Statewide about 40 percent of ex-offenders returned to prison 
in 2001.
    The Second Chance Act is groundbreaking legislation that 
would eliminate barriers to successful reentry and allow 
offenders and their families the tools necessary to break the 
cycle. Just recently, I was campaigning for my candidate for 
Mayor of the City of Cleveland. I went in a barber shop, where 
there were about 20 young African-American males there, and we 
were raising issues. And they said, well what are you going to 
do to help us? We want to work, but nobody wants to hire us. As 
soon as we tell someone that we have a prior record, then, we 
are taken off the list.
    Attached to my testimony, you will find information on two 
entities that do magnificent reentry work in the State of Ohio 
and would stand to benefit from the Second Chance Act. The 
first one, the Community Reentry Program, in Cleveland, Ohio, 
and I dedicate my testimony to Reverend Dick Seary, who passed 
a couple years ago and was the head of the community reentry 
program.
    The second program is the Ohio Department of Rehabilitation 
and Corrections; again, Reginald Wilkinson, the head of 
Corrections and Rehabilitation in Ohio is one of the leaders in 
reentry programs in the State of Ohio. Community reentry is 
part of the Lutheran Metropolitan Ministries and has served the 
City of Cleveland since 1973. At the State level, the 
Department of Rehabilitation and Corrections, their program is 
viewed as a model nationally for administering reentry 
programs.
    Attached to my testimony is information that, A, is about 
community reentry; B is about CORE, which is the State of Ohio; 
and C is about a young man, a specific example, by the name of 
Derek Johnson, who is an ex-offender and worked his way through 
and ultimately became a part of a construction company working 
for construction.
    I can't tell you when I judged, I walked down the street, 
and people would come back and say Congresswoman, Judge, 
whatever they called me, and they'd say thank you for giving me 
a chance to rework my life. I'd even run into people that I had 
sent to jail, and they would say Congresswoman, you sent me to 
jail, I'm out of jail. Thank you for giving me a chance to 
straighten up my life.
    But all of them say to me we can't find a job. Nobody wants 
to let us in. I can't pay for my child to go to school. I can't 
help my family without this opportunity. And this is a 
significant opportunity for the Congress of the United States 
to step up and follow the lead of the President and create a 
Second Chance Act.
    I thank you for the opportunity to be heard.
    [The prepared statement of Ms. Tubbs Jones follows:]

     Prepared Statement of the Honorable Stephanie Tubbs Jones, a 
           Representative in Congress from the State of Ohio

    Chairman Coble, Ranking Member Scott, and members of the 
Subcommittee, thank you for your invitation to testify regarding H.R. 
1704, the ``Second Chance Act of 2005.'' In a bipartisan fashion, I 
have been working with Congressman Cannon, Congressman Davis, Chairman 
Coble, Congressman Scott, and others to make this legislation a 
reality.
    I have been waiting 25 years for this hearing, as I have been 
deeply involved in prisoner reentry issues since my days as a judge and 
county prosecutor in Cleveland, Ohio before serving in Congress. While 
Cuyahoga County Prosecutor, I helped establish the ``Pretrial Diversion 
Program,'' as well as the ``Municipal Drug Court.'' Both programs, I am 
proud to say, still exist and continue to help ex-offenders move on 
with their lives and become productive citizens of society.
    Prisoner reentry is not a Democratic issue or a Republican issue. 
It is a common sense issue. The facts are clear--meaningful reentry 
programs significantly diminish the chance that ex-offenders will 
return to prison. These programs save taxpayer dollars and increases 
public safety. So why not invest in enhancing reentry services in order 
to end the cycle of recidivism? That is the purpose of the Second 
Chance Act.
    Before I discuss this legislation and how we are dealing with 
prisoner reentry in Ohio, let me first describe the problem we 
currently face in my home state.
    The State of Ohio has one of the largest populations of ex-
offenders reentering the community. In 2001, about 24,000 ex-offenders 
returned to their respective communities in Ohio. Of those ex-
offenders, an estimated 6,000 returned to Cuyahoga County, about 5,000 
to the City of Cleveland. Statewide, about 40 percent of ex-offenders 
returned to prison in 2001. In Cuyahoga County, about 41 percent 
returned to prison. Such high recidivism rates translate into thousands 
of new crimes each year and wasted taxpayer dollars, which can be 
averted through improved prisoner reentry efforts.
    The Second Chance Act is ground-breaking legislation that would 
eliminate barriers to successful reentry and allow offenders and their 
families the tools necessary to break the cycle of criminality. The 
legislation makes $110 million directly available to state and local 
governments and non-profit organizations for reentry services. This 
component of the bill is key because it provides direct assistance to 
groups committed to reentry that are ``on the ground.'' One thing is 
certain, state and local governments and non-profits need additional 
funds in order to provide reentry services more effectively.
    Attached to my testimony [Attachments A and B], you will find 
information on two entities that do magnificent reentry work in my 
State of Ohio and would stand to benefit from the Second Chance Act: 1) 
Community Reentry in Cleveland, Ohio, of which I sit on the Board of 
Directors, and 2) the Ohio Department of Rehabilitation and Correction.
    Community Reentry, which is part of the Lutheran Metropolitan 
Ministry, has served the City of Cleveland since 1973 and assisted 
thousands of ex-offenders.
    At the state level, the Ohio Department of Rehabilitation and 
Correction, under the leadership of Reggie Wilkinson, is viewed as a 
model nationally for administering reentry programs. One of their newer 
and more successful programs is the Community-Oriented Reentry Program 
(CORE). CORE will be running out of funds in June 2006, but instead of 
outlining the merits of CORE, and how the Second Chance Act could help 
CORE stay viable, allow me the opportunity to tell you the real-life 
story of an ex-offender that has successfully completed the CORE 
program.
    His name is Derrick Johnson, currently 26 years old, from Columbus, 
Ohio. A full version of his story is attached to my testimony 
[Attachment C], but I will give you a summary.
    Between the ages of 16 and 24, Derrick was incarcerated six times 
for a variety of offenses (drugs, theft, burglary, etc). During his 
sixth incarceration he was introduced to the CORE program and the 
Reentry Management Team. At first, his level of maturity did not seem 
to extend beyond that of a teenager. His body language and demeanor 
still reflected a street mentality and the ``law of survival.''
    However, to the surprise of the team, Derrick not only successfully 
completed the CORE program and his incarceration, but upon his release 
to the community and completion of his correctional supervision, he 
became a model client. After several weeks, he began to open up with 
the help of his case manager. He started to become excited about life 
and the opportunities ahead.
    Derrick was never late for any of his appointments, never tested 
positive for drugs, nor was he sanctioned during his supervision. He 
truly became a role model for his peers in the reentry program.
    In May of 2004, Derrick obtained his first employment ever at 
Wendy's Restaurant. He took great pride in working and earning his own 
money. Today, he has moved on from Wendy's and is now working in 
construction. The pay is better, and he is excited about the 
opportunity to learn about the construction business.
    In a nutshell, Derrick's story encompasses the need to expand the 
support for reentry services. Without CORE, he would probably not have 
been able to turn his life around. He is now a productive, tax-paying 
citizen. That is what this legislation is all about--providing ex-
offenders a second chance to change their lives for the better. 
Derrick's story is evidence that investing in reentry programs pays 
off.
    Thank you for affording me this opportunity to testify, and I would 
be pleased to answer any questions you may have.

                              ATTACHMENTS

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Coble. I thank you all. The distinguished panel has 
contributed very significantly to this hearing.
    Now, folks, we impose the 5-minute rule against ourselves 
as well, so if you all could answer tersely and concisely, that 
will help us move this along.
    Governor, we commend you for your innovative work and 
approach to the reentry issue in Maryland and in particular 
your Restart Program. What specific measures, Governor, can the 
Congress take to provide States with the support needed to 
address the reentry issue?
    Governor Ehrlich. Help us with the science and help us with 
the cash. How is that for concise, Mr. Chairman?
    Mr. Coble. Can't beat that. [Laughter.]
    I can't win with this guy. [Laughter.]
    Mr. Coble. That's concise enough.
    Governor Ehrlich. It is a science based program, obviously.
    Mr. Coble. Yes.
    Governor Ehrlich. It's not feel-good. It's not about 
sounding good when you say it real fast. It's about--I loved 
hearing the testimony from my former colleagues here as well. 
It's about common sense, but it's about real--it's also about 
quantifying results, and there's a lot of programs out there, 
Federal Government, State governments; this is not 
groundbreaking in the sense that it is a new idea. It is 
groundbreaking in the sense that, as I told you in my 
testimony, I can't tell you whether this works in Maryland 
right now. In a year and a half, I want to come back to you and 
tell you what the numbers are, and the numbers are not going to 
lie. Recidivism is the singular measure here.
    And so, quite frankly, it is the science that is 
contributed to by the Federal Government, and to the extent 
that there are additional dollars; when you retrain 
correctional officers, there is an expense involved, obviously, 
and that's what this is about. This is about selecting--we call 
them PIN numbers in Maryland, State employee jobs and job 
descriptions and transforming some traditional jobs, obviously, 
not a majority; you need prison guards; you need people who 
protect us from predators but literally providing the dollars 
for the retraining of the professionals who protect us.
    Mr. Coble. Thank you, Governor.
    Mr. Cannon, the Governor mentioned science and cash. The 
Second Chance Act carries a price tag of approximately $110 
million over two fiscal years. Outline how such spending will 
result in greater savings to governments.
    Mr. Cannon. Thank you. You know, a lot of money can be 
spent on this. The Senate is looking at a bill that has about a 
$300 million price tag, and just given the rules of how we do 
things in the House, I think that we tried to focus on an 
amount of money that can be acceptable but on the other hand 
effective.
    And let me just give you by way of comparison: we have done 
massively more to stop cancers in children than we have in 
adults. And the reason--I have talked to many people about this 
recently--the reason is that we shared best practices, so not 
only do we have science here, you vehicle to measure, you have 
to count; that's the scientific part. But what we are trying to 
do here is to create an environment where new programs can be 
tried and measured, and then, the best practices communicated 
to the States.
    And it's that best practices that I think is going to give 
us the opportunity to see, measure, and emulate and then move 
programs around the country that will actually be effective. 
And I view our role not so much as funding, although, you know, 
you could spend a lot of money I think appropriately on this, 
but the amount of money I think we're spending is good, because 
it gets us started and helps us establish these kinds of best 
practices.
    Mr. Coble. I thank you, sir.
    Mr. Davis, in your testimony, you stressed the importance 
of drug treatment. Specifically, if you will, advise the 
Subcommittee what specific types of programs will work and 
should be expanded.
    Mr. Davis. Thank you very much, Mr. Chairman. I would like 
to ask if this document could be entered into the record. It's 
a reentry profile of my Congressional district that was put 
together by the SAFER Foundation, which has one of the 
outstanding programs in the nation. And they project that using 
their program and based upon their experiences, that they could 
actually save the State of Illinois $81,875,000 a year in 
incarceration costs by reducing recidivism through the 
components of a program that they have where individuals not 
only receive counseling and services for substance abuse; that 
is, substance abuse treatment, but also job skills, job 
development training. It's one of the best documents that I've 
seen.
    It's scientific; they've actually worked it out where they 
reduce recidivism from--they say the number of offenders 
returning would be 7,739; the number expected to recidivate, 
4,479; the number expected to recidivate if they receive SAFER 
supportive services would be 2,167, which is almost half the 
number, and they would save an enormous amount of money.
    Mr. Coble. And without objection, that will be made a part 
of the record.
    [The information referred to follows:]

    Safer Foundation, ``Rentry Profile, 7th District of Illinois,'' 
submitted by the Honorable Danny K. Davis, a Representative in Congress 
                       from the State of Illinois

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Coble. And I see my time has expired. The Gentleman 
from Virginia.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Davis, that kind of program to save $81 million, do 
they show how much it would cost to implement that program?
    Mr. Davis. They don't have the implementation costs, but 
the average cost for a good substance abuse treatment program 
is less than $15,000 a year in this type program. The average 
cost of incarceration in the State prison in the State of 
Illinois is more than $30,000 a year. And so, if you can 
prevent 25 or 30 people from recidivating, then, you can see 
how the dollars begin to add up.
    Mr. Scott. Those are the numbers that I think are extremely 
valuable, because those are consistent with the numbers we saw 
in Virginia, where if you invest a little money up front, you 
can significantly reduce not only recidivism and crime and 
fewer victims; you can also save money. And while you're at it, 
you're helping people get their lives back on track, so it is a 
win-win-win situation, and I appreciate your bringing that 
information to us.
    Governor Ehrlich, you mentioned science based. Do you have 
studies already? I know you're encouraging us to do more 
studies, and I agree there is too little good hard information 
on what works and what doesn't. Do you have studies that can at 
least point us in the right direction?
    Governor Ehrlich. We do, and I believe, Congressman, you 
have access, so we have studies of recent vintage; a recent 
national study conducted by the Washington State Institute for 
Public Policy found the best reentry programs, again, 
quantifying and measuring, could deliver 25 to 30 percent 
reductions in recidivism or crime rates.
    And the bottom line here is even a modest, a relatively 
modest reduction in recidivism rates is an attractive bottom 
line for people. You're literally producing nonvictims in the 
future, and obviously for the taxpayer as well. Just with 
respect to dollars, the average cost of incarcerating an inmate 
in the adult system in Maryland is about $24,000 a year. The 
tuition at College Park, which is one of the most competitive 
schools in the country these days, is $7,800. The juxtaposition 
there speaks volumes about what we could be doing with even a 
modest reduction in recidivism rates.
    Mr. Scott. Do the studies, Governor, show which programs 
work well? We mentioned substance abuse, education. Is that a 
factor?
    Governor Ehrlich. The social scientists, the experts, are 
coming after us. Secretary Saar, obviously, is the expert. But 
some of this is also common sense; it's intuitive. We all know, 
to the extent--the cycle speaks for itself. Addiction, offense, 
incarceration, continued addiction, reoffense, and we're 
surprised. So if you stop that cycle in the middle with 
treatment services both behind walls--and as I said, even a 20 
or 30 percent reduction in recidivism gets you some pretty good 
numbers--that's where the bottom line is. That has not been 
where the emphasis has been at the State level nor the Federal 
level over the years.
    So when you combine that with true therapeutic regimes, 
individualized in many cases, and job skills, first GED and 
then some, you have a pretty good chance of success. That's not 
deep. That's pretty common sense. But the commitment has not 
been there, and as I keep talking about Secretary Saar, without 
the commitment, the buy-in, from your leader, this is not going 
to get done, because for some folks, it's counterintuitive. Not 
everybody is going to buy in. You're going to have some 
resistance. To the extent that you have resistance, you are not 
going to produce the results.
    Mr. Scott. Thank you.
    Ms. Tubbs Jones, you mentioned jobs. What can we do to help 
people get jobs?
    Ms. Tubbs Jones. I'm going to refer you, Mr. Chairman, and 
Ranking Member Scott, to Attachment A that I submitted to you 
with regards to the Community Reentry Program. It provides for 
you the operating expenses of Community Reentry as well as the 
various programming that it does.
    I think one of the things that we have to do is get a 
public-private partnership going and talk to the private sector 
about the importance of hiring ex-offenders. And I want to be 
clear that I am not suggesting that we put people who are 
thieves in a bank, nor am I suggesting that we put people who 
have been offenders to young men or women into a day care 
center, but there are jobs and skills that many ex-offenders 
have that will be very useful.
    We were able, in fact, to create a couple businesses in 
Cleveland. We did a painting business with ex-offenders and a 
catering business with ex-offenders. We also have used them to 
do other things. But all of us understand that if you have a 
job, then, you feel good about yourself, and you can take care 
of your family. And I think there are benefits that far exceed 
the dollars when you see families that are stable, that you see 
young men and women or girls and boys who can look up to their 
parent and see that they are taking care of them and on and on 
and on. But jobs are integral to the successful reentry of 
people into the market.
    Mr. Coble. I thank the Gentleman.
    We have been joined by the distinguished Gentlemen from 
Ohio and Arizona, Mr. Chabot and Flake respectively, and the 
Chair recognizes the Gentleman from Ohio.
    Mr. Chabot. I thank the Chairman, and I want to thank him 
for holding this very important hearing, and I would like to 
particularly thank the distinguished panel that we have here 
today for their leadership in this area. I apologize for being 
a little bit late. There was a conference going on which some 
of our colleagues are still at which was going a little bit 
long.
    I also want to thank the former judge from Ohio, Ms. Tubbs 
Jones, and say that I enjoyed accompanying her and a number of 
our colleagues to Rosa Parks' funeral yesterday in Detroit. It 
was a very moving experience, and we were there for about 7 
hours. That was a pretty long service, but nonetheless, those 
of us who went, it will be something we will never forget.
    This is an area that I have had some interest in for quite 
some time. I have been in Congress now 11 years but was a local 
elected official for 10 prior to that and was very active in 
putting people to work in the community and trying to push the 
philosophy that, you know, when somebody has taken something 
from society, they ought to be able to give something back by 
working and that they benefit, and it reduces recidivism and 
many of the other things that I am sure that this panel has 
already covered to me getting here.
    Let me just ask a couple of points, and I will just throw 
it out and let the panel address this. And I know you have 
already addressed this to some degree already. But if you could 
talk about, and let me preface this by saying there is a 
movement to deemphasize the Federal Prison Industries through 
various means. There is some argument that there is an unfair 
competition between the private sector and those that are 
performing services within the prisons, and I think certainly, 
something needs to be addressed. But Congressman Scott and I 
have been active in trying to make sure that we continue the 
Prison Industries efforts.
    Could you talk about the relationship between Prison 
Industries type things, people actually working, getting job 
skills, because most of these people are going to get out some 
day, and if they have some skills that they have acquired, 
there is a better chance that they will be employed and be able 
to contribute to society rather than being back in an 
institution at public expense again to the detriment of 
themselves and society to some degree.
    Could you talk about the relationship between the skills 
that one can acquire while one is incarcerated and putting 
those skills to work once they get out? And if you want to 
touch also on the literacy, the fact that so many folks don't 
have particularly high degrees of literacy and that whole 
education, the factor that's evolved there, and anyone who 
would like to touch on that, we would love to hear you.
    Mr. Davis. Well, I will take a shot at it right quick.
    You know, the Prophet Gibran says that work is love made 
visible and that when you work, you connect yourself to the 
environment of which you are a part. If you have no opportunity 
to work, then, you have no hope. You have no sense of being 
able to contribute. Many of the individuals who are 
incarcerated are incarcerated because the kind of work they 
have traditionally done in many instances has dried up, does 
not exist.
    For example, there is a seriously disproportionate number 
of African-American males in prison. Traditionally, black men 
in America have always worked in basically two industries: 
first, it was agriculture production, and then, with the 
industrial revolution, it was moving into the factories. From 
many of the large urban areas where factory work no longer 
exists, these individuals have not been trained for the kind of 
work that does, in fact, exit to become a part of a high tech 
service economy; therefore they don't work, and when they don't 
work, of course, they do all kinds of other things.
    And so, we have to convince employers to give work 
opportunities and look at--we call it a case-by-case basis to 
find work that individuals can do where they don't have finding 
problems, where they don't have all of the problems that are 
associated with one being an ex-offender or having a criminal 
record or background. And I think that is one of the great 
needs.
    Mr. Cannon. If I could follow up on what Congressman Davis 
has said, you know, in the recession in 2000, we lost in the 
very early months of the year 2000 almost 2 million 
manufacturing jobs, which went right to the core of this issue. 
And on this particular topic, you have a great deal of 
expertise and have introduced legislation or amendment to 
establish--I know you understand it well.
    But typically, what we are doing in some of our Federal 
industries is just manufacturing and training in jobs that 
aren't going to exist when these guys get out, so I have some 
serious concern. I was a principal in a company before I came 
to Congress that did a great deal of organizing, training, and 
helping States and State prisons teach people computer skills 
and to work in data entry and other computer areas. And the 
company is ongoing and is still a significant employer in that 
environment.
    This is a hard issue, and I think that we need to solve it 
in a different way, and we're not dealing with it in this bill. 
But ultimately, if a person is in jail and is going to jail, we 
can't give them a second chance, we can't divert them like 
Congresswoman Tubbs Jones is talking about and getting them on 
a different track in life, if they're in jail, we ought to 
create a context for them to gain skills that will allow them 
to make a transition when they get out, and part of that is 
having drug rehabilitation and other kinds of things so that 
they're acceptable as employees.
    But it just seems like the greatest crime on earth is that 
we dump people in a system where bad things happen to them; 
they are involved in a bad environment, and there is no way to 
develop the kind of skills that will make them marketable when 
they get out. So this is an issue of great importance where 
there have been some successes that could be emulated.
    Mr. Coble. The Gentleman's time has expired.
    The distinguished Gentleman from Massachusetts, Mr. 
Delahunt.
    Mr. Delahunt. Thank you, Mr. Chairman.
    Let me say that I find this most refreshing, and I share 
all of your enthusiasm; particularly, Congresswoman Tubbs 
Jones, we share a similar background. I, too, was a prosecutor. 
I represented the Metropolitan Boston area for some 22 years, 
as I think most of you are aware. Chris, you are right. This is 
an issue that has a significant moral dimension, but I think in 
terms of policy, we should repeat as often as possible that it 
is an issue of public safety.
    When in my former career I had a responsibility for 
investigating and prosecuting crimes within the major penal 
institutions in Massachusetts, they were within my 
jurisdiction, so I became very familiar with the history of 
those inmates. When there were no programs available, when we 
released these individuals back into the community, what we 
were doing in effect were introducing time bombs, social time 
bombs back into our neighborhoods, and not only would they 
recidivate, but the order of magnitude of violence that they 
perpetrate would have escalated.
    So this is--and Governor, you used the term several times--
common sense. Common sense dictates that here is part of an 
answer, part of an answer to increase safety within our 
communities. So it should not be unanticipated or unexpected 
that two former prosecutors like Stephanie and myself should be 
ardent advocates for this approach, because it does make sense, 
and it enhances public safety. And again, it relieves the 
burden, if you will, on a criminal justice system that has 
difficulty finding resources to simply process people through.
    And that's not healthy for the criminal justice system. And 
it does save taxpayers' dollars. Let's put aside the altruism 
for a moment. This is a cheap investment. Not only are you 
enhancing public safety, giving people, as Chris, you 
indicated, an opportunity predicated on our sense of morality 
to have another chance, but you're saving tax dollars.
    I'm in my fifth term, my ninth year. This is the most 
sensible legislation that has come before this Committee since 
I have been here. I applaud the Chairman, the Ranking Member, 
and other cosponsors and the four of you as well as Congressman 
Portman for this work. I would hope that we would put this on a 
fast track.
    This has been one of those issues where Democrats can 
support fast track; and get this on the President's desk before 
the end of the year. Stephanie.
    Ms. Tubbs Jones. I just want to add, I thank you for those 
words. In Attachment B, CORE Ohio, that I gave you, Director 
Wilkinson says planning for the offender's successful return to 
the community would begin at reception. Needs as well as risks 
would be identified as well as services to be provided during 
the offender's stay in the institution to meet those needs.
    This is the program in Ohio, and this is what we're really 
looking at, reentry as soon as they hit. But I also would 
recommend to my colleagues there are a number of nonprofits out 
here who have done studies and who have information that can 
assist you in determining the cost as well as the scientific 
piece, that they have done that work for us already.
    Mr. Delahunt. Just one quick question for the Governor: you 
indicated in your testimony that there were some elements, some 
groups that opposed your initiative in Maryland, and let me 
applaud you, Governor, it was extremely refreshing, your 
testimony; without getting too specific, can you identify them, 
because I would like to have the former DA from Cuyahoga County 
in Ohio and myself sit down and tell them what real life is 
about.
    Governor Ehrlich. Can I borrow you to come to Annapolis to 
testify this January?
    Mr. Delahunt. Absolutely, I'd be willing.
    Governor Ehrlich. All of you? You are all invited, and I 
will buy you some crab cakes, too.
    Mr. Chabot. Would the Gentleman yield? I think it's 
Cuyahoga, but---- [Laughter.]
    Mr. Delahunt. It is one of those, you know, kind of----
    Mr. Chabot. You are not a Buckeye, so we wouldn't expect 
that.
    Mr. Delahunt. What is a Buckeye, anyway? [Laughter.]
    Mr. Chabot. We have actually got a buckeye tree in our back 
yard. I'll bring you one.
    Governor Ehrlich. I think that the blunt answer is twofold: 
one is a little bit counterintuitive for a Republican governor 
in our State to be pushing this hard, and the politics plays 
out a little bit there. But on the tangible end, it is some 
folks within the system, obviously, who have job descriptions; 
they have had them forever. Some are multigeneration; we're 
talking about creating treatment slots here. This is 
fundamentally different, a different philosophical approach, 
and change brings--sometimes, it brings resistance.
    Mr. Delahunt. I would hope, and we've done similar kinds of 
efforts in Massachusetts, and I think those that are there find 
that they're challenged, and it's new opportunity, and they 
discover a new energy because they see the results. And that 
would be my admonition to those that are reluctant and are 
concerned about change.
    Governor Ehrlich. I think you're correct.
    Mr. Delahunt. They will have an entirely new perspective 
and feel a profound reward when they see the results.
    Governor Ehrlich. Absolutely agree.
    Mr. Coble. The Gentleman's time has expired.
    I say to the Gentleman from Ohio the accent of the 
Gentleman from Massachusetts is clearly not Buckeye. 
[Laughter.]
    And before I recognize Mr. Flake, I want to say to Mr. 
Delahunt, well said. I don't normally embrace fast track 
proposals, as you all know around here, but this is one issue 
that I would warmly embrace fast track.
    The Gentleman from Arizona.
    Mr. Flake. I thank the Chairman. I apologize for coming in 
late. I was at the conference meeting referenced. But I've read 
through some of the written testimony. Just with a question, 
this is $110 million authorized for the program. What--why, the 
relevant question, I think, is why should the Federal 
Government do this? These are State prisons. The State 
obviously has an interest there. We have, obviously, myriad 
Federal programs that we are trimming back on now, and here, we 
would be launching a new one, and here, the relevant question 
is if the payoffs are so good, and I understand and agree with 
this being an investment that pays dividends in the long run if 
you don't have as much recidivism. But shouldn't that be 
recognized at the State level? Can that not be recognized at 
the State level? I would ask--go ahead, Stephanie.
    Ms. Tubbs Jones. I will try to be quick with my answer so 
that others can have an answer.
    As a former State prosecutor, many times, an offense can be 
both a Federal and a State offense, and often, the Feds would 
opt to let the State do it, maybe because the penalty was 
greater, or the State would opt to let the Feds do it. But the 
crime, though it may be State or Federal, is an offense that 
affects all of America, and in the interests of the reduction 
of crime across America, it makes sense that the Federal 
Government be involved in the process.
    Mr. Davis. Well, with me, everything is philosophical. You 
can't lead where you don't go, and you can't teach what you 
don't know. It seems to me that the Federal Government has the 
responsibility to be the leader in this country. A program like 
this will actually trigger action on the part of all segments 
of society, which is what's really going to be needed to change 
the situation.
    There are about 15 million people in this country who fall 
into this category of being called ex-offenders. Many of them 
will never, ever, make it back to the mainstream, which means 
that the rest of society, in one way or another, will be paying 
for them. The issue of public safety is so great; I often 
suggest that if I walked down the street with a briefcase in my 
hand, and people think I'm an insurance salesman rather than a 
politician or an elected official and that there might be some 
money in it, chances of some guy needing a fix attacking me for 
this briefcase that's got nothing but position papers in it 
that will more than likely send me to the hospital for maybe 6 
months or a year at a cost of a half million dollars to 
somebody that could have been prevented had this individual not 
felt the need for a $15 bag of crack at that particular moment.
    And so, I think it's a public safety issue and that the 
Federal Government has some responsibility to its citizenry all 
over the country, and that's why I think we really need to be 
involved.
    Governor Ehrlich. I struggle with this, because I'm a tenth 
amendment guy. I sat here, and I respect lines, and I don't 
think we've suspended the tenth amendment just yet; sometimes, 
I wonder. On the other hand, I also sat here as an advocate for 
Representative Scott's Project EXILE, which began in Virginia, 
which worked, because crime does not know political boundaries; 
to some extent, you heard that from the Judge Congresswoman 
there.
    But quite frankly, if you're talking about a State system, 
and you have a specific problem, felon in possession cases 
where the State law or the State dollars or the State impetus 
is simply not there, the ability to have the threat of a 
Federal sentence, Federal venue, Federal jurisdiction, Federal 
time as a wedge and have the ability of the Federal U.S. 
Attorneys to take those cases up works.
    Now, that's traditional street crime; that's not why the 
Federal courts were invented. But in that case, it's 
prosecutors working together to make our streets safer, and 
that, in my view, does not violate any philosophical lines. And 
so, I would say we've done that at times because crime knows no 
boundaries, and we have a historic degree of cooperation in 
specific areas between State and Federal prosecutors. And so, 
in that sense, I think it does make some sense.
    Mr. Flake. Just in closing, I wax philosophical as well, 
Representative Davis, to say we can't spend money that we ain't 
got, and we are running a deficit, so any money we spend, we 
either take from another program, which I am fine to do, and 
this is certainly more worthy than others. But I worry when we 
do it at the Federal level, often, the oversight and 
accountability is gone. The DARE program is a perfect example 
of that. GAO came in, study after study, and said it's not 
worth the money spent. And what did we do last year? We 
increased the money spent with no additional oversight or 
change to the program.
    So that's my concern going in.
    Mr. Scott. Will the Gentleman yield?
    Mr. Flake. I don't have any time left or I would.
    Mr. Scott. I ask unanimous consent that he be given 30 
seconds.
    Mr. Coble. Without objection.
    Mr. Flake. I yield.
    Mr. Scott. That's one of the things that the Governor 
started his remarks with. He wanted it scientifically based so 
that we don't invest in programs that don't work. And so, 
that's one of the things that we need is more research to make 
sure that we put the money where it will make the most 
difference.
    Mr. Coble. The Gentleman's time has expired.
    Governor, what you said initially, Mr. Scott, you impliedly 
touched on it when you said you're employing the same programs 
that have failed time and time again serve no good purpose. And 
I think you put your finger on the pulse when you said that.
    The Gentlelady from California, Ms. Waters, is recognized.
    Ms. Waters. Thank you very much, Mr. Chairman and Members.
    I'd like to thank you, Mr. Chairman, and I'd like to thank 
our Ranking Member and all of our Members who have worked on 
this legislation. It is overdue. It is overdue, and I do 
believe, having gone through the legislation that we have an 
opportunity here to correct many of the mistakes that we have 
made dealing with crime and the criminal justice system. I know 
this population very well, having worked with portions of my 
former district and having lived through the crack cocaine 
epidemic in the Greater Los Angeles area.
    I am particularly concerned about the fact that so many 
young people, young families were torn apart because of crack 
cocaine addiction, mothers and fathers both in prison, mother 
dead, father dead from overdoses, on and on and on; children 
end up with grandmothers and no resources. This bill speaks to 
that.
    I am particularly concerned about many of the incarcerated 
who have no hope when they return to society because, you know, 
number one, once they fill out that application that says, you 
know, I've been incarcerated, it goes in the wastebasket. They 
can't get subsidized housing; they can't get student loans. We 
almost set our societies up for failure and for more crime by 
basically undermining any opportunity for people who have the 
right, the desire to go right once they get out to be able to 
do so.
    So I like the idea that there are going to be demonstration 
projects. Let's find out, let's just stop talking about what 
doesn't work. Let's find out if there are some new ideas out 
there. Let's deal with some of the nonprofits. Let us do what 
this bill, I think, intends to have done. And I just don't like 
the idea of talking about we don't have enough money to do it.
    I mean, you know, yesterday, when we were at the Rosa Parks 
funeral, somebody talked about the weapons of mass destruction 
that are in our domestic society here and the fact that the 
very kinds of weapons of mass destruction that are destroying 
our communities, our families, and our children, we fail to 
recognize. And we talk about we've got money to stay in Iraq 
for as long as it takes, but we don't have money to invest in 
our communities and our future.
    So I just think this is the most progressive piece of 
legislation that I have witnessed in a long time in this 
Congress, and the bipartisan effort is commendable. And I would 
hope that not only we aggressively pass legislation but that we 
all work toward its funding. And I just want to say thank you, 
Members, for having worked on this legislation. Thank you for 
the time and effort that you have put into it.
    I think that this legislation will not only help our 
cities. It is going to help our rural communities where 
methamphetamines and crack cocaine and everything else have 
just infiltrated those communities and give these families and 
these young people an opportunity. Did we have job training in 
here?
    Is there job training in here, Mr. Davis?
    Mr. Davis. Yes.
    Ms. Waters. That is very important. And we also have some 
encouragement in here for employers to hire ex-offenders. I 
think that we have such a program, a small program in the Los 
Angeles area that works, where some of the--I think we have--we 
may have some tax incentives in some way. They may not be 
Federal, but they may be State and/or local. I think that is 
extremely important. We do have employers who are willing to 
hire folks who have been incarcerated, but we need to give them 
some help so that they can do that.
    So thank you all so much for the time and effort that you 
have put into it. I look forward to having something that I can 
go home with and say look, we did something good for a change. 
Thank you very much.
    Mr. Coble. I thank the Gentlelady, and as you just pointed 
out, Ms. Waters, at least by implication, there are many cooks 
stirring this stew.
    Ms. Waters. Yes.
    Mr. Coble. Republicans, Democrats, liberals, conservatives, 
maybe some mugwumps or two. But it takes many people from 
diverse backgrounds, I think, to make it go, and that may be 
one reason why so many people are embracing this legislation, 
and I would like to move it forward.
    Mr. Davis. Mr. Chairman, as you do, could I just thank the 
gentlewoman for her comments and also indicate that a young man 
from my office who is from Los Angeles, Ph.D. fellow Bernard 
Moore, has been working closely on the issue and has written a 
position paper that I also would like to have included in the 
record.
    Mr. Coble. Without objection, Mr. Davis, it will be 
received.
    [The information referred to follows:]

  Position Paper by the Honorable Danny K. Davis, a Representative in 
  Congress from the State of Illinois, and Bernard Glenn-Moore, CBCF 
                           Legislative Fellow

    The Second Chance Act of 2005 H.R. 1704 entitled ``To reauthorize 
the grant program of the Department of Justice for reentry of offenders 
into the community, to establish a task force on Federal programs and 
activities relating to the reentry of offenders into the community, and 
for other purposes.'' Certainly the topic of this hearing is one of the 
most important justice initiatives that exist today. Our comments 
detail why we've attached a high level of importance to the concept of 
offender reentry.
    We would like to provide the Committee with a general overview of 
the importance of prisoner reentry to the field of corrections before 
we share more specific comments about the value of the legislation you 
are considering.

                           REENTRY NATIONALLY

    As it moves through the first decade of the twenty-first century, 
the field of corrections has embarked upon a major reexamination of 
offender reentry. In fact, offender ``reentry'' is beginning to take 
the corrections world by storm much overdue.
    There is a growing national movement in corrections embracing 
offender reentry. Remarkably, in a relatively short span of time, an 
impressive array of efforts has been launched at all levels of 
government and by untold groups and community organizations to build 
more effective and innovative responses to the myriad of challenges 
presented by reentry. These efforts, which we will summarize at various 
points throughout my remarks, demonstrate clearly that reentry is not a 
fad. It is here to stay!
    Since the late 1990s, the 1990s, the Urban Institute in Washington, 
D.C., has hosted a series of Reentry Roundtables to assess the state of 
knowledge and to publish specialized reports on this topic. Leaders in 
the field, academicians, policymakers, and many other have gathered 
periodically to debate and share what is known about the challenges and 
issues that must be addressed to ensure successful reentry transitions 
for offenders.
    The National Institute of Corrections (NIC) in 2000 hosted two 
national ``public hearings'' on a variety of correctional topics; one 
such topic was offender reentry. As a result, NIC has launched a 
significant ``transition from Prison to Community'' project to offer 
technical assistance and support to a select number of states relative 
to transforming their systems governing reentry. NIC, a division of the 
U.S. Department of Justice, is well regarded within the field of 
corrections. It has always been, and continues to be supportive of 
decision-making informed by credible evidence and sound practice.
    In 2001, the U.S. Department of Justice and a broad consortium of 
federal agencies forged a unique, path breaking partnership by 
providing a total of $100 million in grant funding spread across all 
fifty states to address reentry planning and programming for serious, 
violent, felony offenders. Known as the ``Serious and violent Offender 
Reentry Initiative,'' its continuing importance to the field has been 
reinforced by additional funding for a comprehensive, multi-year, 
multi-site evaluation of selected states' systems of reentry.
    As this Committee is well aware, President George W. Bush in his 
2004 State of the Union address urged Congress to allocate $300 million 
over four years to support the reentry transition of offenders. His 
reentry initiative calls for support for job training and placement 
services, transitional housing, community and faith-based services, 
especially in mentoring offenders as they return home. President Bush's 
recitation that ``America is the land of second chances'' will resonate 
with corrections professionals for years to come.

Offender Recidivism and Public Safety
    It is notable that approximately 650,000 offenders will be released 
annually form state and federal prisons to communities and 
neighborhoods across the land. What this means is that over the course 
of the next decade, a total of six to seven million formerly 
incarcerated persons will return home from confinement. The interest in 
reentry is fueled by many factors including the recognition by 
legislators, correctional officers, and other that public safety is 
sorely compromised when hundreds of thousands of prisoners released 
from institutions are ill-prepared and ill-equipped to succeed in the 
free world. The Second Chance Act recognizes how reentry is approached, 
the strategies, initiatives, and programs that are adopted by those in 
the field matter a great deal to the future well-being of communities, 
victims, and offenders.
    From research and common sense, we know that a majority of 
offenders released from confinement are all too likely to reoffend. As 
Dr. Joan Petersilia, a well-known California criminologist states, the 
problem of offender recidivism remains quite serious. She has compared 
the results survey by the by the U.S. Department of Justice, Bureau of 
Justice Statistics (BJS) on a cohort of prisoners released in 1994 with 
a similar BJS study completed on prisoners released in 1983. Her dismal 
conclusion is that ``from the available evidence--persons being 
released from prison today are doing less well than their counterparts 
released a decade ago in successfully reintegrating into their 
communities. More of them are being rearrested; these arrests are 
occurring more quickly; and as a group, ex-convicts are accounting for 
a growing share of all serious crimes experienced in he United 
States.'' High rates of recidivism mean pronounced levels of 
victimization.
    The costs of criminal behavior and recidivism are enormous. High 
rates of offender recidivism are one factor driving prison population 
growth across the country. A total of $60 billion was spent on 
corrections alone in 2002, a figure that shows no sign of decreasing. 
The national average annual cost of confining a prisoner exceeds 
$22,000. And these figures do not account for other criminal justice 
processing costs, or the costs--personal and property related--to the 
victims of crime. These are costs that cannot be sustained in the 
absence of any meaningful return on the investment.
    My experience over thirty-two years in corrections suggests 
unequivocally that the issue of offender recidivism must be addressed 
from within a fundamentally different framework. Whether the 
reincarceration is because of a new crime committed or a technical 
violation, we must begin by recognizing that corrections leaders and 
correctional systems cannot go it alone. To do so promises to repeat 
the failures of the past, and guarantees continued high rates of 
offender recidivism.

Viewing Reentry Holistically
    The Second Chance Act clearly acknowledges the importance of taking 
a holistic approach when dealing with offenders returning home. In 
Illinois, Ohio, Washington, and other in many other states, innovative 
initiatives are underway that emphasize building a continuum of 
services, programming, support, and offender accountability that 
extends from the time of sentencing well beyond release from prison to 
any period of supervision that may follow. The key is that these 
strategies and initiatives must be developed in collaboration and 
partnership with community groups and organizations, service providers, 
citizens, victims, and formerly incarcerated individuals. Their 
ownership and support at the local level are vital to achieving 
successful pathways for offender reentry.
    The process of planning for reentry begins immediately through a 
series of assessments at a prison reception center, not a few weeks, or 
even a few months, before release from incarceration. This effort 
represents an ambitious and holistic endeavor to create a seamless 
transition from prison to the community. Reentry planning is an 
essential component that must begin immediately upon an offender's 
admission. It draws on a variety of risk and needs assessment tools for 
prioritizing programming and service delivery as offender's transition 
through the system. The Second Chance Act recognizes the importance of 
such assessments to reducing the likelihood of offender recidivism 
through its provision for grants to state and local governments to draw 
on such tools.
    Ensuring that offenders receive appropriate programming both during 
confinement and while they are under supervision in the community is an 
important component of the reentry transition. National statistics, as 
well as Illinois data, indicate that a significant percentage of 
offenders who enter state and federal prison have previous histories of 
substance abuse, and/or mental health problems. These offenders require 
effective intervention and service delivery in a manner that must be 
sustained both during and after incarceration. The provision in the 
bill offering demonstration grants supportive of such programming will 
assist many states in addressing these offenders' unique needs. It is 
critical, however, that the treatment interventions provided draw from 
those program models that have demonstrated their effectiveness and 
value as evidenced by credible evaluations.

Strengthening Families
    One of the more significant costs associated with imprisonment is 
its impact on the families and children left behind. As research shows, 
a growing number of prison inmates are parents. During the last decade 
the total number of parents in prison has increased sharply--from an 
estimated 450,500 in state and federal facilities in 1991 to 721,500 in 
1997--an increase of sixty percent. These prisoners are parents to 1.5 
million children. This figure represents a growth of over one-half 
million children in the last decade.
    More children are affected by the incarceration of a parent than at 
any other time in the history of corrections in the United States. In 
fact, two percent of all minor children and roughly seven percent of 
all African-American children had a parent in state or federal prison 
in 1997.
    Yet, one of the more sobering trends too often overlooked in 
correctional management discussions is the impact incarceration and 
reentry have on families, fathers, mothers, children, siblings, and 
other who are connected to a family network. Policymakers and others 
have not paid enough attention to how the experience of incarceration 
and reentry affects families and children. Nor have they paid 
sufficient attention to how engaging families and prisoners during and 
after confinement may contribute to more successful reentry outcomes.
    The Second Chance Act recognizes the importance of family 
involvement in reentry. We strongly support its commitment to provide 
grant funding to states and local jurisdictions to expand family-based 
treatment centers that target comprehensive treatment services for the 
family as a unit. Family case management that starts inside and 
continues into the community following an offender's release will 
contribute to successful reentry transitions. We also support the 
bill's provision that calls for removing the age limitation for 
grandparents to receive support and services under those circumstances 
in which they have assumed custody and care for their grandchildren 
while one or both parents are incarcerated.

Improving Communities' Quality of Life
    The Second Chance Act recognizes the vital role that community-
based organizations and local community members should play in 
returning offenders to their home and communities so that they can be 
productive and remain crime free. Communities and local citizens bring 
expertise, knowledge of resources, and often a willingness to assist 
offenders in making a successful reentry transition. Mentoring 
represents a particularly important component in this process. Mentors 
whether through faith-based, or other community organizations offer 
guidance, direction, and often a compassionate commitment to work with 
ex-offenders as they reacquire the skills and competencies they need to 
make it once they are released.

Collateral Sanctions and Barriers to Reentry
    Offenders released from prison experience a range of barriers 
affecting their prospects for a successful return home. Since 1980, 
numerous laws have been passed restricting the kinds of jobs for which 
ex-prisoners can be hired, easing the requirements for their parental 
rights to be terminated, restricting their access to public welfare and 
housing subsidies, and limiting their right to vote. Though the 
rationale for these changes may have been well intentioned, their 
impact has been cumulative and deleterious to offender reentry.
    Jeremy Travis, President of John Jay College of Criminal Justice, 
called these ``invisible punishments'' by which he means the rights and 
responsibilities of citizenship and legal residency in the United 
States. Referred to by others as collateral sanctions, they represent 
laws, regulations, and administrative rules that often operate largely 
out of public view. They may carry serious, adverse, and unfair 
consequences for the individuals affected.

                  LOOKING AHEAD: THE FUTURE OF REENTRY

    We are optimistic about the future of reentry. The scale and scope 
of the national focus on reentry is unique to the extent that it 
encompasses a holistic perspective. The Second Chance Act provides a 
very sensible balance that recognizes reentry is about public safety, 
at the same time, it is about returning offenders home as tax-paying 
and productive citizens. As we think about the past and our prospects 
for the future, it is very evident to me that we do not have whole lot 
viable options--other than to embrace reentry. Reentry must be done 
correctly. That means drawing on reentry best practices, seeking active 
collaboration and sustainable community and faith-based partners, 
engaging families across the full spectrum of reentry, and reducing 
those barriers that undermine offenders' successful those goals, when 
coupled with the very vital support provided by the Second Chance Act, 
we will experience outcomes that create safer communities.

    Mr. Coble. And I would like to ask the Members of the 
Subcommittee, if they could, after we adjourn, to hang around. 
We are going to mark up the meth bill, and it won't take more 
than two or 3 minutes.
    Governor, again, welcome back to the Hill. My colleagues, 
thank you all for a very significant contribution. And we 
welcome as well, Governor, your entourage from Maryland and Mr. 
Scott and I did not have to call on the troopers to keelhaul 
anyone.
    Ms. Waters. Mr. Chairman?
    Mr. Coble. The Gentlelady from California.
    Ms. Waters. If I could have unanimous consent for 30 
seconds: I forgot to thank Mr. Cannon and the Governor. I 
really meant to do that. I was just so excited, having run back 
from a press conference. For your leadership, Mr. Cannon, and 
thank you, Mr. Governor, for spending the time that you have 
spent today. This is very important, and I think that you're 
going to be responsible for some changes.
    Thank you very much.
    Mr. Coble. I thank the Gentlelady, and the record will 
remain open for 7 days if you all want to submit additional 
information, and the Subcommittee stands adjourned.
    [Whereupon, at 10:51 a.m., the Subcommittee adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Prepared Statement of the Honorable Robert C. Scott, a Representative 
      in Congress from the State of Virginia, and Ranking Member, 
        Subcommittee on Crime, Terrorism, and Homeland Security

    Thank you, Mr. Chairman. And I want to thank you for scheduling 
this hearing on H.R. 1704, the Second Chance Act. This is a bi-partisan 
bill that takes a significant step in the right direction toward 
ensuring that those who leave our state and federal prisons have the 
assistance and support they need to avoid returning. The primary reason 
for us to develop this legislation is not simply to assist offenders 
who are returning to the community. The primary reason is to lower the 
prospects that any of us will be the victim of recidivism. Second 
reason, lower the cost to taxpayers who have to pay for the recidivism.
    This year, close to 700,000 people will leave prison in the U.S. 
Most of them are ill-prepared to succeed in earning a living and 
leading a law-abiding life, and the resources available to assist them 
re-enter successfully are very limited. The addition of a felony record 
and a prison stay certainly does not assist their job or social 
development prospects. So, with no or limited education, resources, job 
skills, federal benefits disqualifications due to drug or other 
convictions, and often no family or community support, not 
surprisingly, some two-thirds of released prisoners are rearrested for 
new crimes within 3 years of their release.
    Although the national crime rate has fallen significantly over the 
last decade, we are seeing a continuing and unprecedented increase in 
our prison and jail populations. One philosopher noted that when you 
find yourself in a whole, the first thing to do is to stop digging, but 
we seem not ready to do that, just yet, as policy makers. Right after 
this hearing we will be marking up a bill with more mandatory minimum 
sentences and more severe penalties on existing ones.
    All of this focus on increasing sentences has led us to the point 
that we now have, on a daily basis, over 2.2 million people locked up 
in our nations prisons and jails, a 5 fold increase over the past 20 
years. The federal prison population, alone, has increased more than 7-
fold over the past 20 years. In 1984, the daily lockup count for our 
prisons and jails was just over 400,000 with about 25,000 prisoners 
federal prisoners. Today, there are over 2 million state prisoners and 
almost 190,000 federal prisoners, and the population is growing. 
According to both The Sentencing Project and the Federal Bureau of 
Prisons (BOP), the primary reasons for this tremendous growth in prison 
and jail populations has been longer sentences resulting from 
determinant sentencing schemes, and mandatory minimum sentences. Over 
50% of incarcerated inmates are in on non-violent crimes, with the 
greatest percentage of those being for drug violations.
    As a result of this focus on incarceration, the U.S. being the 
world's leading incarcerator, by far, with an incarceration rate of 726 
inmates per 100,000 population in 2004. The closest competitor is 
Russia with 532 inmates per 100,000 population. The U.S. locks up its 
citizens at a rate 5-8 times that of the industrialized nations to 
which we are most similar--Canada and western Europe. Thus, the rate 
per 100,000 population is 142 in England/Wales, 117 in Australia, 116 
in Canada, 91 in Germany, and 85 in France. And despite all of our 
tough sentencing for crimes, over 95% of inmates will be released at 
some point. The question is whether they re-enter society in a context 
that better prepares them and assists them in leading law-abiding 
lives, or continue the cycle of \2/3\ returning in years? So, if we are 
going to continue to send more and more people to prison with longer 
and longer sentences, we should do as much as we reasonably can to 
assure that when hey do leave they don't come back due to new crimes.
    That's why the Second Chance Act is very important, and I applaud 
its developers and lead cosponsors--Former Representative Portman, Rep. 
Danny Davis, Rep. Stephanie Tubbs Jones and Rep Cannon. It is bi-
partisan bill supported by 88 cosponsors, including myself, and 
virtually all of the criminal justice advocates and organizations, 
including law enforcement, who work with or are familiar with the 
situation encountered by those leaving our prisons today. About the 
only criticism I have heard of the bill and its provisions is that they 
don't go far enough to fully address the problems facing those re-
entering society from prison. I agree with that criticism, but feel 
that this bill is worthy of support as a good first step. I am also a 
cosponsor of a prisoner re-entry support bill developed by 
Representative John Conyers in the last Congress that will be refiled 
this Congress. That bill addresses many of the programs and issues 
touched by this bill, but it goes further and actually implements the 
programs on a national level.
    I have seen the value of a prisoner re-entry program. A study of 
the Virginia CARES prisoner reentry program, which had only meager 
resources for a statewide program, revealed that the program had a 25% 
reduction in recidivism when compared to like prisoners released. who 
did not have the benefit of the program.
    As a society, we breathe a sigh of relief when a long sentence is 
issued for a crime, as if that is the end of our responsibilities. With 
the numbers of prisoners, releases and reincarcerations growing 
exponentially, we can no longer afford, financially or morally, to 
allow ourselves the luxury of tough on crime rhetoric, and tough on 
crime policies, with no attention to what happens next. To continue to 
do so is unfair to unsuspecting crime victims, including our children, 
short-sighted and irresponsible.
    So, Mr. Chairman, I look forward to the testimony of our witnesses 
as to what we may be able to do to begin to seriously address this 
growing societal problem, and to working with you to further develop 
and pass this critical legislation. And I would like to thank Gov. 
Ehrlich for appearing here today. When I saw his name among others on a 
members panel, that all seemed to fit because I had forgotten the 
reason I had not seen him for a while. Thank you.

 Letter submitted by Bill Hansell, President, National Association of 
    Counties (NACo), and Beverly O'Neill, President, United States 
            Conference of Mayors (USCM) to the Subcommittee

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Letter submitted by Lewis E. Gallant, Executive Director, National 
Association of State Alcohol and Drug Abuse Directors, Inc. (NASADAD), 
                          to the Subcommittee

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Policy Brief submitted by the National Association of State Alcohol and 
       Drug Abuse Directors, Inc. (NASADAD), to the Subcommittee

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
